IN THE

SUPREME COURT OF THE UNITED STATES

TIMOTHY A. WARD,
Petitioner,

v.

UNITED STATES OF AMERICA,
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.

The petitioner has previously been granted leave to proceed in forma pauperis
in the following courts:

U.S. District Court for the Eastern District of Virginia,
Case No. 3:18CR44, by oral order entered April 11, 2018;
and

U.S. Court of Appeals for the Fourth Circuit, Case No. 18-
4720, by written order dated October 3, 2020.

Because appellate counsel was appointed pursuant to the Criminal Justice Act
of 1964, 18 U.S.C. ยง 3006A, no affidavit or declaration of the petitioner is attached.
See S. Ct. R. 39.1.
February 26, 2021

Respectfully submitted,

(Cette d Plaok

Caroline S. Platt

Appellate Attorney

Counsel of Record

Office of the Federal Public Defender
for the Eastern District of Virginia

1650 King Street, Suite 500

Alexandria, VA 22314

(703) 600-0800

caroline_platt@fd.org
